U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

August 2, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: North Carolina Utilities Commission v. FERC, No. 19-42
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 2, 2019
and placed on the docketed on July 5, 2019. The government’s response is now due on August 5,
2019.
We respectfully request, under Rule 30.4 of the Rules of this Court, an extension of time to and
including September 4, 2019, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0042
NORTH CAROLINA UTILITIES COMMISSION
FERC

KATHLEEN L. MAZURE
DUNCAN & ALLEN
1730 RHODE ISLAND AVENUE, NW
SUITE 700
WASHINGTON, DC 20036
202-289-8400
KLM@DUNCANALLEN.COM

